Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

February 12, 2020
BY ELECTRONIC FILING AND FIRST-CLASS MAIL
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

K.G.S., Individually and as Guardian and Next Friend of Baby Doe,
a Minor Child v. Facebook, Inc., No. 19-910

Dear Mr. Harris:
I represent respondent in the above-referenced petition for certiorari. A response is
currently due on February 21, 2020. Respondent respectfully requests that the time
to file a response be extended by 30 days, to and including March 23, 2020. The
extension is warranted because the undersigned counsel, Mitchell P. Reich, was
recently retained as counsel of record and must familiarize himself with the issues
and record. In addition, Mr. Reich has upcoming filings in several other matters
that will require his attention over the next several weeks, including a petition for
certiorari in Jessop v. City of Fresno, 9th Cir. No. 17-16756, due on February 14; a
reply brief in support of certiorari in Taylor v. Pima County, No. 19-756, due on
February 26; and merits briefs in Ford Motor Company v. Montana Eighth Judicial
District Court, No. 19-368, and Ford Motor Company v. Bandemer, No. 19-369, due
on March 2. Given these commitments, an extension of time is warranted to permit
Mr. Reich to prepare a response that fully analyzes and responds to the arguments
raised in the petition for certiorari.
Respectfully submitted,
Mitchell P. Reich
Counsel of Record for Respondent
cc:

Ruthanne Mary Deutsch, Deutsch Hunt PLLC

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Caracas Colorado Springs Denver
Dubai Dusseldorf Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami
Milan Minneapolis Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rio de Janeiro Rome San Francisco São Paulo Shanghai
Silicon Valley Singapore Sydney Tokyo Ulaanbaatar Warsaw Washington DC Associated offices: Budapest Jakarta Shanghai FTZ Zagreb. Business Service
Centers: Johannesburg Louisville. For more information see www.hoganlovells.com

